No.
INTHE

~upreme Qtourt of toe Wlniteb ~tates
RIMINI STREET, INC .,

Petitioner,
V.
ORACLE USA, INC., ORACLE AMERICA, INC ., AND
ORACLE INTERNATIONAL CORPORATION,

Respondents.
CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Petition for a Writ of Certiorari contains 6,322 words and complies with the
word limitation established by Rule 33.l(g)(i) of the Rules of this Court.
Dated: November 5, 2019

